AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
    OFFICE OF JUVENILE JUSTICE AND
       DELINQUENCY PREVENTION
           GRANT AWARDED TO
  NATIONAL SAFE PLACE, INCORPORATED
          LOUISVILLE, KENTUCKY


        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-50-11-001
             November 2010
           AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
   OFFICE OF JUVENILE JUSTICE AND DELINQUENCY PREVENTION
                      GRANT AWARDED TO
              NATIONAL SAFE PLACE, INCORPORATED
                     LOUISVILLE, KENTUCKY

                          EXECUTIVE SUMMARY

      The Department of Justice (DOJ) Office of the Inspector General, Audit
Division, has completed an audit of an Office of Justice Programs (OJP),
Office of Juvenile Justice and Delinquency Prevention grant awarded to
National Safe Place, Incorporated (NSP). The NSP is a wholly owned
subsidiary of the Young Men’s Christian Association of Greater Louisville,
Incorporated. The primary purpose of the grant was to provide funding to
address the immediate physical and emotional needs of at-risk youth while
developing a longer-term course of action to create locations in the
community where youth can easily access immediate help and safety. The
goal of the project is to reach 4 million young people and to make them
aware of the services available through Safe Place runaway shelters and
Safe Place community locations. The NSP was awarded $201,228 under
grant number 2008-JL-FX-0146. We tested the NSP’s accounting records to
determine if reimbursements claimed for costs under the grant were
allowable, supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant, and to determine program
performance and accomplishments.

       The objective of our audit was to review performance in the following
areas: (1) internal control environment; (2) grant expenditures, including
personnel; (3) budget management and control; (4) grant requirements;
(5) program performance and accomplishments; (6) drawdowns; and
(7) financial status and progress reports. We determined that indirect costs,
program income, subgrantees, and local match were not applicable to this
grant.

       As of April 5, 2010, the grantee had been reimbursed $131,009 in
grant funds and had recorded total grant expenditures of $139,491. We
performed detailed testing of grant transactions, including payroll,
amounting to $139,491. We examined the NSP’s accounting records,
financial and progress reports, and operating policies and procedures. In
total, we identified $106,973 in dollar-related findings. Our findings are
summarized below.
     •     Grant-related financial activity was commingled with other
           financial activity of the NSP.

     •     We questioned $18,497 in unsupported salary and fringe
           benefits because the grantee did not maintain adequate
           supporting documentation that substantiated employee time
           spent on grant activity.

     •     The NSP received reimbursement of $62,651 for transactions
           that it initiated prior to the grant start date.

     •     The NSP expended $25,825 in grant funds for literature, but the
           literature did not contain the required acknowledgement that it
           was purchased with DOJ funds.

     •     The grantee’s drawdown requests and Financial Status Reports
           did not reconcile to the accounting records.

      Our report contains seven recommendations to address the preceding
issues, which are discussed in detail in the Findings and Recommendations
section of the report. Our audit objectives, scope, and methodology appear
in Appendix I of the report.




                                   - ii –
                                  TABLE OF CONTENTS



INTRODUCTION ........................................................................ 1
     Background .......................................................................... 1
     Our Audit Approach ............................................................... 2
FINDINGS AND RECOMMENDATIONS........................................ 3
     Operational and Administrative Structure ................................. 3
     Accounting and Internal Controls ............................................ 3
     Grant Expenditures ............................................................... 4
     Budget Management and Control ............................................ 7
     Grant Drawdowns ................................................................. 7
     Grant Reporting .................................................................... 8
     Program Performance and Accomplishment .............................. 9
     Views of Responsible Officials ................................................. 9
     Recommendations ...............................................................10
APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ....... 11

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS .... 13

APPENDIX III: AUDITEE RESPONSE ...................................... 14

APPENDIX IV: OFFICE OF JUSTICE PROGRAMS RESPONSE .... 18

APPENDIX V: OFFICE OF THE INSPECTOR GENERAL ANALYSIS
            AND SUMMARY OF ACTIONS NECESSARY
            TO CLOSE THE REPORT .................................... 21
                                     INTRODUCTION

        The Department of Justice (DOJ) Office of the Inspector General (OIG),
  Audit Division has completed an audit of the National Safe Place, Incorporated
  (NSP), grant awarded by the Office of Justice Programs (OJP), Office of
  Juvenile Justice and Delinquency Prevention. The NSP was awarded $201,228
  under grant number 2008-JL-FX-0146. The main purpose of the grant was to
  provide funding to address the immediate physical and emotional needs of at-
  risk youth while developing a longer-term course of action to create locations
  in the community where youth can easily access immediate help and safety.

        The purpose of this audit was to determine whether reimbursements
  claimed for costs under the grant were allowable, supported, and in
  accordance with applicable laws, regulations, guidelines, and terms and
  conditions of the grant. In addition, we attempted to determine program
  performance and accomplishments.

  Background

        The NSP was originally formed as a branch of the Young Men’s Christian
  Association of Greater Louisville, Incorporated (Louisville YMCA), and has
  grown to service teens in crisis and shelters nationally through the
  implementation of the Safe Place program. The NSP currently operates as a
  wholly owned subsidiary of the Louisville YMCA. The NSP’s primary activities
  include promotional efforts to help shelters seek local businesses to serve as
  Safe Place locations and as sponsors of the program, training shelter staff in
  understanding best practices in communicating the availability of the program
  concept to teens both in and out of school systems, providing support services
  to shelters in expanding the local knowledge of the shelter services provided,
  and helping secure accessibility to shelters by teens in crisis.

  Office of Juvenile Justice and Delinquency Prevention Grant Awarded
                   to National Safe Place, Incorporated
     AWARD              AWARD          AWARD     AWARD
     NUMBER           START DATE      END DATE   AMOUNT             OBJECTIVE
                                                            To address the physical
 2008-JL-FX-0146 07/01/2008           06/30/2010 $201,228   and emotional needs of
                                                            at-risk youth
             Total                               $201,228
Source: Office of Justice Programs
Our Audit Approach

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, grant award
documents, and relevant Office of Management and Budget (OMB) Circulars.
We tested the NSP’s:

     •   Accounting and Internal Controls to determine whether the
         grantee had sufficient accounting and internal controls to identify
         and report expenditures and reimbursements.

     •   Grant Expenditures to determine the accuracy and allowability of
         costs charged to the grant.

     •   Budget Management and Control to determine the amounts
         budgeted and the actual costs for each approved cost category and
         to determine if the grantee deviated from the approved budget, and
         if so, if the grantee received the necessary approval.

     •   Accomplishment of Grant Requirements and Objectives to
         determine whether the grantee met or is capable of meeting the
         grant objectives and whether the grantee collected data and
         developed performance measures to assess accomplishment of the
         intended objectives.

     •   Grant Drawdowns to determine whether grant drawdowns were
         adequately supported and if the grantee was managing grant
         receipts in accordance with federal requirements.

     •   Financial Status and Progress Reports to determine if the
         required reports were submitted on time and accurately reflected
         grant activity.

      We also performed limited work and confirmed that the NSP did not
receive reimbursement for indirect costs, did not generate or receive
program income, was not required to contribute any local matching funds,
and that funds were not awarded to sub-grantees. We therefore performed
no testing in these areas.




                                     -2-
               FINDINGS AND RECOMMENDATIONS

      We determined that the NSP was accomplishing or making
      adequate progress in fulfilling the objectives of the grant.
      However, our audit revealed commingling of grant records,
      insufficient documentation to support grant payroll activity, and
      unallowable expenditures. As a result, we questioned $106,973
      in expenditures.

       We performed audit work at the NSP Office in Louisville, Kentucky,
where we obtained an understanding of the accounting system and reviewed
a sample of grant expenditures. We reviewed the criteria governing grant
activities, including the OJP Financial Guide and relevant OMB Circulars. In
addition, we reviewed grant documents, including the application, award,
budgets, and financial and progress reports. We also interviewed key
personnel at the NSP and Louisville YMCA offices.

Operational and Administrative Structure

      After receiving the award, the NSP assigned an NSP employee to
function as the Grant Administrator. After serving as the Grant
Administrator for 1 year, this person was replaced by another employee as
the Grant Administrator. The NSP Executive Director stated that her role as
Executive Director was to ensure that the grant objectives were being met.
The NSP’s Executive Director tracked the budget, requested drawdowns of
funds from OJP, and reviewed invoices before they were sent to be
processed by the Louisville YMCA, which maintained the accounting records,
performed the bank reconciliations, and paid grant invoices.

      The Grant Administrators were full-time employees of the NSP. Their
responsibilities were to oversee the public relations and marketing efforts of
the NSP and serve as a communications resource to each of the local Safe
Place coordinators across the country. The original Grant Administrator was
replaced in August 2009 and a new employee assumed his responsibilities.
This position required that 20 percent of the employee’s time be devoted to
grant-related activities.

Accounting and Internal Controls

      According to the OJP Financial Guide, grant recipients are required to
establish and maintain accounting and internal control systems to account
accurately for funds awarded to them. Further, the accounting system
should ensure, among other things, the identification and accounting for



                                     -3-
receipt and disposition of all funds, funds applied to each budget category
included in the approved award, and non-federal matching contributions.

      To gain an understanding of the control environment over DOJ grants,
we reviewed the award documents to determine if the NSP completed the
standard assurance statements regarding eligibility and compliance with
applicable laws and regulations and a drug-free work place requirement.
According to OJP, a grant application cannot be submitted electronically
without the grantee checking off that it agrees with these standard
assurance statements. We determined that the grantee filed its application
electronically and the assurances were not available in hard copy.

      We also reviewed the grantee’s financial management system, policies
and procedures, and Single Audit Reports to assess the NSP’s risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grant. We did not test internal controls or the financial management
system for the NSP as a whole.

       We interviewed NSP and Louisville YMCA employees responsible for
areas such as payroll, purchasing, and accounts payable, and we observed
their accounting activities to further assess risk. The grantee’s financial
management system accounted for grant funds and grant-related
expenditures. The grantee operates under procedures that it promulgates in
a policy and procedures manual that covers ethics and basic business
procedures. Each new employee receives a copy of the manual and the
organization conducts a 2-day orientation session during which the policies
are reviewed.

      However, we noted internal control weaknesses within the accounting
system. Specifically, DOJ grant funds were commingled with other NSP
financial activity, including another federal grant. In addition, the system
did not provide for sufficient separation of duties because the Louisville
YMCA accounts payable clerk also processed the payment of invoices. We
also found that detailed operating procedures for the accounting system
were not documented and that the NSP did not have a written travel policy.
Further, we noted that bank reconciliations were not signed off by either the
preparer or the reviewer.

Grant Expenditures

      The OJP Financial Guide requires that states, local governments, and
non-profit organizations comply with OMB Circular A-87, which states that
costs must be necessary, reasonable, allocable, authorized, and adequately
documented. The approved grant budget included the following:


                                    -4-
                NATIONAL SAFE PLACE, INCORPORATED
          APPROVED GRANT BUDGET AND DESCRIPTION OF COSTS
                           APPROVED
                            REVISED
    COST CATEGORY           BUDGET            DESCRIPTION OF PLANNED EXPENDITURES
                                         A portion of the salary for the Communications
                                         Director responsible for communications and
 Personnel                    $18,270    marketing

 Fringe Benefits                 1,764   Standard fringe cost
                                         To attend grant management training associated
 Travel                          1,500   with the program
                                         Safe Place wristbands, brochures, books, t-shirts
                                         with text messaging information, and various
 Supplies                       46,691   promotional items
                                         Contractor for marketing and making youth
 Contract/Consultant            60,000   aware of the services that the NSP provides

 Other                          73,003   Promotions and development of blog

 TOTAL                      $201,228

 FEDERAL FUNDS              $201,228

 LOCAL MATCH                        $0
  Source: Office of Justice Programs and National Safe Place Records

      The grantee expended grant funds on payroll, supplies, travel,
promotional material, and development of a website. The grantee also
produced advertising on National Safe Place for movie theaters. To
determine the accuracy and allowability of costs charged to the grant, we
reviewed personnel and other direct expenditures. Total expenditures for
the grant totaled $139,491, of which the NSP had been reimbursed
$131,009. We tested all paid invoices and all payroll and fringe benefits
through April 5, 2010. This testing included 42 invoices, which totaled
$120,993. The dollar amount that we tested for payroll and fringe benefits
totaled $18,497. The total amount of expenditures tested was $139,491.1

      Our testing revealed that the grantee had adequate documentation to
support the non-personnel expenditures. However, we identified questioned
costs totaling $106,973 because the grantee could not provide adequate
support for personnel and fringe benefit costs and used grant funds for
unallowable items, as described below.

      OMB Circular A-122, “Cost Principles for Non-profit Organizations,”
requires charges for salaries and wages to be based on documented payrolls

      1
          Any differences in total amounts are due to rounding.


                                           -5-
approved by a responsible official of the organization. Further, reports must
be prepared each month reflecting the actual activity of each employee, not
estimated amounts. The reports must be signed by the individual employee
or by a responsible supervisor having first-hand knowledge of the activities
performed by the employee, and the distribution of activity must represent a
reasonable estimate of the actual work performed by the employees. A
substitute system may be used if approved in writing by the cognizant
agency.

      The grantee did not have activity reports detailing how much time the
Grant Administrators spent on grant activity because, under the grantee’s
system, these employees were considered management employees and
were exempt from using the grantee’s time tracking system. 2 The
timesheets for management employees only certify that the required
80 hours were worked for the bi-weekly pay period. As previously reported,
the Grant Administrators devoted approximately 20 percent of their time to
the DOJ grant and the rest of their time to other non-grant related activities.
According to OMB Circular A-122, grant employees who work part-time on a
grant are required to record their time on activity reports. We are therefore
questioning $18,497 in personnel and fringe benefit costs because these
costs were not adequately supported.

      The NSP also used $62,651 in grant funds for transactions that
occurred prior to the grant award date. The grant period start date was
July 1, 2008, and the NSP’s accounting records show that the funds for
these transactions were obligated from January 2008 through June 2008.
These funds were used for supplies, travel, salary and fringe benefits,
contractual, and other expenses. According to the OJP Financial Guide,
grant expenditures must be encumbered on or after the beginning date of
the grant award period. Therefore, we are questioning the $62,651 in grant
expenditures obligated prior to the award period.

       In addition, the NSP purchased promotional items such as shirts, teddy
bears, wristbands, note pads, and flyers. However, these items did not
contain an acknowledgment that DOJ funded the items. According to the
OJP Financial Guide, all materials publicizing or resulting from award
activities shall contain an acknowledgement of the awarding agency
assistance. Based on our review of the items, the grantee has not fulfilled
this requirement. Therefore, we are questioning the cost of these items,
which totaled $25,825.




      2
          National Safe Place changed its grant administrator in August 2009.


                                           -6-
Budget Management and Control

      The NSP Executive Director monitored the grant budget to ensure that
overall spending was appropriate and that spending by budget category was
proper. She did this by maintaining a spreadsheet of the expenses that
were charged to the grant. When we compared the grant budget against
actual spending, we found that all expenditures in all categories were under
the budgeted amounts.

Grant Drawdowns

      We reviewed the NSP’s process for requesting OJP reimbursement for
grant-related costs to ensure that reimbursement requests were supported
adequately by official accounting records and were in accordance with
federal requirements. However, rather than matching reimbursements to
expenses as required by the OJP Financial Guide, grant officials took
reimbursements from the grant when they felt they would need funds.

      We compared drawdowns to actual expenses recorded in the NSP
general ledger and found that for the periods we reviewed, the figures did
not reconcile. However, we did note that as of April 5, 2010, the NSP had
$8,482 in expenses for which it had not yet claimed reimbursement, and we
found that the NSP did not have excess funds on hand. The NSP should
establish procedures to ensure that its drawdown requests are based on
actual grant expenditures, as recorded in the grant accounting records.

          COMPARISON OF DRAWDOWNS TO EXPENDITURES
                              Expenditures
             Drawdown          Per General          Drawdown
                Date             Ledger              Amount             Difference
             10/27/2008           68,803.02           20,000.00            48,803.02
             12/03/2008            7,206.83            7,000.00               206.83
             03/12/2009           21,075.43           30,000.00           (8,924.57)
             04/01/2009              397.73           15,000.00         (14,602.27)
             05/05/2009            1,216.99           10,000.00           (8,783.01)
             07/01/2009            3,047.05            2,500.00               547.05
             07/23/2009                0.00            7,500.00           (7,500.00)
             08/12/2009              837.52              500.00               337.52
             09/03/2009            1,027.89            1,250.00             (222.11)
             10/02/2009            1,403.67            9,900.00           (8,496.33)
             11/02/2009            2,577.86            3,000.00             (422.14)
             12/03/2009              855.77           10,000.00           (9,144.23)
             01/08/2010           21,988.67            5,000.00            16,988.67
             03/11/2010            6,099.51            5,000.00             1,099.51
             04/05/2010            2,952.89            4,359.00           (1,406.11)
               TOTAL            139,490.83          131,009.00             8,481.83
           Source: OIG analysis of Office of Justice Programs and National Safe Place data



                                               -7-
Grant Reporting

      The OJP Financial Guide states that two types of reports are to be
submitted by the grantee. Financial Status Reports (FSR) provide
information on monies spent and the unobligated amounts remaining in the
grant. Program progress reports provide information on the status of
grant-funded activities.

Financial Status Reports

       The OJP Financial Guide states that FSRs are due within 45 days after
the end of the calendar quarter. We reviewed all filed FSRs and determined
that they were submitted on time. However, our analysis showed that all of
the FSRs contained errors. For example, the first FSR – for the period of
July 1, 2008, to September 30, 2008 – listed no expenditures for the period,
while the accounting records listed $66,976 in expenditures. Further, the
FSR for the period October 1, 2008, to December 31, 2008, shows
expenditures of $42,000, yet the general ledger identified expenditures
totaling $9,432. Our results for all reports reviewed are displayed in the
following table.

            COMPARISON OF EXPENDITURES REPORTED IN
              THE NSP’s FINANCIAL STATUS REPORTS
                     AND GENERAL LEDGER
                                 Expenditures
                                                Expenditures
          Report Period           per General                     Difference
                                                   per FSR
                                    Ledger
      07/01/08 to 09/30/08           66,975.52            0.00       66,975.52
      10/01/08 to 12/31/08            9,432.06       42,000.00     (32,567.94)
      01/01/09 to 03/31/09           21,075.43       40,000.00     (18,924.57)
      04/01/09 to 06/30/09            3,854.41       20,000.00     (16,145.59)
      07/01/09 to 09/30/09            3,250.82       11,650.00      (8,399.18)
      10/01/09 to 12/31/09           25,422.30       18,000.00        7,422.30
     Source: Office of Justice Programs and National Safe Place

Progress Reports

      According to the OJP Financial Guide, progress reports are due
semiannually on January 30 and July 30 for the life of the grant. We
reviewed the three most recent progress reports and determined that the
grantee submitted them in a timely manner. In addition, the data in the
three reports that the grantee submitted was supported by documentation
about the grant-funded activities.




                                        -8-
Program Performance and Accomplishment

       The mission of the NSP is to provide at-risk youth a safe place to go or
provide youth help with their problems. The NSP was established as a
program by the Louisville YMCA to serve the needs for all young people in
crisis in the Louisville area. Over time, the program has expanded
throughout the country. The NSP works with other organizations that
sponsor the program in their hometowns. Today, the NSP serves as the
umbrella organization that provides programming, material, support, and
coordination to its affiliates.

      The objectives of the grant were to reach 4 million young people and
to make them aware of the services available through Safe Place runaway
shelters and community locations. The NSP commissioned a public relations
firm that launched public service advertisements that were viewed by middle
and high school students. Additionally, the advertisements were shown at
schools that subscribed to a satellite television service that provided news
and educational content to students. The NSP also implemented and
promoted a program whereby youths could send a text message to the NSP
and in return, they would receive the location of a local shelter where they
could receive help. The Progress Report ending June 30, 2009 stated that
the Building a Safety Net for Youth campaign continued through the efforts
of Safe Place coordinators in 139 Safe Place agencies. According to the NSP,
from January 1 to June 30, 2009, 994,834 youth were reached through a
nationwide campaign involving public awareness advertising at movie
theaters.

      To determine if the NSP met the objectives of the grant, we reviewed
various reports that were provided to the NSP by third parties that tracked
the number of youth that saw the movie trailers and the number of students
that were exposed to the public service advertisements at their school. We
reviewed the reports and found that the number of reported viewers at
cinemas and in schools appears to be reasonable and in line with the grant’s
objectives.

Views of Responsible Officials

       We discussed the results of our review with grantee officials
throughout the audit and at a formal exit conference, and we have included
their comments as appropriate.




                                     -9-
Recommendations

     We recommend that OJP:

  1. Require the NSP to account separately for grant financial activity in
     order to prevent the commingling of the accounting records with other
     NSP federal grant financial activity.

  2. Remedy the $18,497 in unsupported salary costs and fringe benefits
     charged to the grant.

  3. Remedy the pre-award costs of $62,651 charged to the grant.

  4. Remedy the $25,825 expended on promotional material that did not
     have the required DOJ acknowledgement.

  5. Ensure that any future promotional items that are purchased with DOJ
     funds indicate on the items that they were purchased with DOJ funds.

  6. Require the NSP to establish grant accounting procedures to ensure
     that drawdowns are based on actual expenditures as recorded in the
     grant accounting records. The NSP should also ensure that its
     accounting provider has adequate internal controls in place, to include
     an adequate separation of duties for cash-related functions.

  7. Require the NSP to submit corrected Financial Status Reports.




                                   - 10 -
  APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards and included such tests as were
considered necessary to accomplish our objectives. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Our audit concentrated on, but was not limited to, the inception of the
grant on July 1, 2008, through April 5, 2010. This was an audit of the
Juvenile Justice and Delinquency Prevention Act of 2002, grant
number 2008-JL-FX-0146, for which the NSP was awarded a total of
$201,228. In conducting our audit, we performed sample testing in two
areas – drawdowns and grant expenditures. In this effort, we selected all
transactions, including payroll and fringe benefits. We reviewed 42 grant-
related expenditures and performed separate tests of the payroll and fringe
benefit costs. In total, the grantee had drawn down $131,009 and reported
grant costs of $139,491 as of April 5, 2010. We tested all grant
expenditures, which totaled $139,491.

      We tested compliance with what we consider the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide. We reviewed the
NSP’s grant activities in the following areas: (1) internal control
environment; (2) grant expenditures, including personnel; (3) budget
management and control; (4) grant requirements; (5) program performance
and accomplishments; (6) drawdowns; and (7) financial status and progress
reports. We determined that indirect costs, program income, local match,
and subgrantees were not applicable to this grant.

      The NSP is a wholly owned subsidiary corporation of the Young Men’s
Christian Association of Greater Louisville, Incorporated. The NSP was
audited in 2008 by an independent Certified Public Accountant, and the
results of this audit were reported in the Single Audit Reports that
accompanied the Comprehensive Annual Financial Report for the year ended


                                    - 11 -
December 31, 2008. The Single Audit Report was prepared under the
provisions of Office of Management and Budget Circular A-133. We
reviewed the independent auditor's assessment to identify control
weaknesses and significant noncompliance issues related to the grantee or
federal programs. The independent auditor’s assessment disclosed no
control weaknesses or significant noncompliance issues related to the NSP.
We performed limited testing of source documents to assess the timeliness
and accuracy of Financial Status Reports, reimbursement requests,
expenditures and Progress Reports; evaluated performance to grant
objectives; and reviewed the grant-related internal controls over the
financial management system. We also tested all invoices, payroll, and
fringe benefits as of March 19, 2010. However, we did not test the reliability
of the financial management system as a whole.




                                    - 12 -
 APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS



 QUESTIONED COSTS                                                        AMOUNT           PAGE


 Unsupported Salary for Grant Administrator
 Position and Unsupported Fringe Benefit Costs                          $   18,497            6

 Unallowable Pre-award Costs                                                62,651            6

 Unallowed Material Cost not Marked as
 DOJ- Funded                                                                25,825            6

 TOTAL QUESTIONED COSTS




 TOTAL DOLLAR-RELATED FINDINGS                                          $106,973




_________________

Questioned Costs are expenditures that do not comply with legal, regulatory, or contractual requirements,
or are not supported by adequate documentation at the time of the audit, or are unnecessary or
unreasonable. Total questioned costs may exceed the total award because costs may be questioned for more
than one reason. These costs may be remedied by offset, waiver, recovery of funds, or the provision of
supporting documentation.




                                             - 13 -
                                APPENDIX III: AUDITEE RESPONSE
Our Mission
Project Safe Place provides
access to immediate help
and supportive resources for
all young people in crisis
through a network of sites            October 18, 2010
sustained by qualified agencies,
 trained volunteers and businesses.
                                      Carol S. Taraszka
Board of Directors
Linda Rutherford                      Regional Audit Manager
  Chairperson                         U.S. Department of Justice
  Southwest Airlines
                                      Office of the Inspector General
Jed Alpert                            Chicago Regional Audit Office
  Mobile Commons
                                      500 West Regional Audit Office
J. Barry Barker
   TARC                               Suite 1121
James Braun                           Chicago, IL 60661
  Youth in Need
Robert Callander                      Dear Ms. Taraszka,
  The Leasing Group
Jena Collins
  Apple, Inc.                         I received your letter and the draft report on the limited scope audit
Joe Diamond                           conducted on National Safe Place (NSP) Office of Justice Program grant
  Alloy, Inc.                         2008-JL-FX-0146 by your office earlier this year. I understand that seven
Gina Digioia                          recommendations have been made for NSP with regard to this audit. I have
  Alloy, Inc.
                                      enclosed with this letter a copy of each of the recommendations and the
H.R. “Skip” Elliott
  CSX                                 response to each. The response includes NSP’s agreement or disagreement
Michael Fitz                          with each statement as well as our corrective action plan and timeline. I have
 Sprint                               also included a copy of the NSP updated grants policy and procedures as
Debra Friggel                         Attachment One.
  QuikTrip
Mark Giuffre’
 UPS                                  As the new Executive Director for National Safe Place, I appreciate the
Chris Hackett                         opportunity to provide feedback on this draft report. It is my understanding
 DHA Global Staffing                  that this is the first federal grant from the Justice Department received by
Maria Hughes                          National Safe Place and this agency certainly wants to assure that we are
 Humana
                                      correctly administering these funds. We have completed many of the
Roger Levesque, Ph.D
  Indiana University                  objectives for this project and have excellent outcomes to show.
Sammy Moon
  The Annie E. Casey Foundation       Please do not hesitate to contact me if you have any questions or need any
David Thieman                         additional information. I can be reached at 502-635-3660 or via email at
  PepsiCo
                                      ljackson@nationalsafeplace.org.
Nikki Wielgos
  Crisis Center, Inc.
                                      Sincerely,
Executive Director
Laurie Jackson



                                      Laurie Jackson
                                      Executive Director

                                                   Department of Justice


                                                          - 14 -
                                    Draft Audit Response by
                                      National Safe Place

Recommendation #1
Require NSP to account separately for grant financial activity in order to prevent the
commingling of the accounting records with other NSP federal grant financial activity.

Response #1
National Safe Place agrees that funds were not segregated in the accounting functions. In order to
assure that this issue does not happen in the future, the agency has already made adjustment to
the accounting process. All federal funds that come into NSP will be given a separate program
code and all revenue and expenses associated with that federal grant will be accounted for within
that program code. For example, OJJDP funds will be accounted for in account/code 426. New
account codes will be created for each different federal grant received by NSP.

Recommendation #2
Remedy the $18,497 in unsupported salary costs and fringe benefits charged to the grant.

Response #2
NSP agrees that grant time was not documented as necessary. It is now the policy of NSP that
whenever federal funds are received for an employee’s salary that employee will document their
work time attributed to the grant on a grant time sheet. In order to justify the $18,497 in costs
from the audit, certified time sheets will be compiled. These certified time sheets will be signed
by the employee attesting to the work time that was spent on the grant from July 1, 2008 until the
audit was completed and grant time sheets were instituted. In addition, the Executive Director
will sign the timesheets certifying that the work was completed and the time attributed to the
grant. NSP will seek retro approval for this time from OJP.

Recommendation #3
Remedy the pre-award costs of $62,651 charged to the grant.

Response #3
This grant was requested and funded in order to do an awareness campaign for NSP. The
$62,651 in pre-award expenses were used to secure services from the contractor, Colman Brohan
Davis for the development and branding of this campaign. Most specifically, this was for design
of an ad for National Safe Place and purchase of the theatre advertising time to run the ad in
theatres. The previous Executive Director had conversations with the Program Officer and
requested this pre-award expense. I have spoken with the Program Officer and she recalls
speaking with the previous Executive Director. NSP has requested retroactive pre-cost agreement
approval in writing and the Program Officer is completing this.

Recommendation #4 & 5
Remedy the $25, 825 expended on promotional material that did not have the required DOJ
acknowledgement. Ensure that any future promotional items that are purchased with DOJ funds
indicate on the items that they are purchased with DOJ funds.




                                             - 15 -
Response #4 & 5
National Safe Place did purchase and distribute promotional items that did not state they had
been purchased with DOJ funds. NSP has implemented a policy that if promotional items are
purchased with any grant funds, federal or otherwise, all items will contain acknowledgement
that they were purchased with the grant funds. This policy went into effect on October 1, 2010.
With regard to the items already purchased and delivered, NSP, with approval from DOJ, will
send a letter to all entities that received any of the promotional items. This letter will state that
the items were purchased with funds from a grant received by NSP from the Department of
Justice.

Recommendation #6
Require NSP to establish grant accounting procedures to ensure that drawdowns are based on
actual expenditures as recorded in the grant accounting records. NSP should also ensure that its
accounting provider has adequate internal controls in place, to include an adequate separation of
duties for cash-related functions.

Response #6
National Safe Place has established policies that states “when payments for grants are to be
received incrementally or through a drawdown process, NSP will only draw down amounts that
are based on actual expenditures. Expenditures will have already occurred or will occur within
three days of the drawdown request. Documentation for expenses attributed to specific grants
will be kept on file in the main grant file or will be easy to track and retrieve from accounting
based on the accounting program code.

National Safe Place believes that both the NSP office and the financial accounting office have
adequate internal controls in place including separation of duties for cash related functions. The
Office Manager is responsible for receipts and completing deposits forms. The Program
Coordinator delivers deposits to the bank. The Executive Director reviews the cash receipts and
the financials to assure revenue is posted. The Executive Director also monitors monthly
financial statements and detailed general ledger transactions. The NSP board also reviews the
financial statements monthly. Accounts Payable clerk writes checks and pays the bills based on
invoices submitted from NSP. Invoices have been reviewed and coded by the Executive
Director. Checks of over $1,000 are also signed by the CFO. The Accounting Manager
reconciles the bank account each month. Both the YMCA of Greater Louisville (the accounting
financial entity) and National Safe Place are audited each year. The audits of both organizations
have indicated that proper separation is in place.

Recommendation #7
Require NSP to submit corrected Financial Status Reports.

Response #7
NSP agrees that Financial Status Reports may have been inaccurate. NSP will revise and
resubmit all Financial Reports for this grant in a timeline determined by the Department of
Justice.




                                               - 16 -
                                         National Safe Place
                                            Grants Policy

Policy Statement: It is the policy of National Safe Place that grants received by this agency,
including federal, state, local, will be documented in accordance with all guidelines for that
grant.

Procedures:

1. When a grant is received, an official grant file will be opened. This file will have a copy of
   the grant submitted and the award letter. As expenses occur, a copy of the receipts will be
   kept in the grant file along with any documentation regarding drawdowns or receipt of grant
   funds. Additional material in the grant file will include any financial and program reports
   completed for the grant.

2. All staff or employees funded under a grant will be required to track their time associated
   with each grant on a grant timesheet. These will be kept on file and turned into their
   supervisor on a monthly basis. Timesheets will be signed by the employee and the
   supervisor. These timesheets will then be kept and stored in the main grant file.

3. All grants that require it will be kept in a separate account in order to prevent co-mingling of
   funds. Accounting records for each federal grant will be tracked using a separate accounting
   program code. This code will be assigned by the finance office.

4. If any grant funds are received that provide for the purchase of promotional items, NSP will
   assure that these promotional items will state on them that they were purchased with grant
   funds and list the funding agency. This procedure will be followed unless the funding
   agency makes a different stipulation.

5. When payments for grants are to be received incrementally or through a drawdown process,
   NSP will only draw down amounts that are based on actual expenditures. Expenditures will
   have already occurred or will occur within three days. Documentation for expenses
   attributed to a specific grant will be kept on file in the main grant file or will be easy to track
   from the accounting office based on the grant accounting program code.




                                               - 17 -
 APPENDIX IV: OFFICE OF JUSTICE PROGRAMS RESPONSE


                                                  U.S. Department of Justice

                                                  Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                 Washington, D.C. 20531




October 13, 2010

MEMORANDUM TO:               Carol S. Taraszka
                             Regional Audit Manager
                             Office of the Inspector General
                             Chicago Regional Audit Office

                              /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Office of Juvenile Justice and Delinquency Prevention, Grant
                             Awarded to National Safe Place, Incorporated, Louisville, Kentucky

This memorandum is in response to your correspondence, dated September 24, 2010,
transmitting the subject draft audit report for National Safe Place, Incorporated (NSP).
We consider the subject report resolved and request written acceptance of this action from
your office.

The report contains seven recommendations and $106,973 in questioned costs. The following is
the Office of Justice Programs’ (OJP) analysis of the draft audit report recommendations. For
ease of review, the recommendations are restated in bold and are followed by our response.

1.     We recommend that OJP require NSP to account separately for grant financial
       activity in order to prevent the commingling of the accounting records with other
       NSP Federal grant financial activity.

       We agree with the recommendation. We will coordinate with NSP to obtain a copy of
       implemented procedures to prevent the commingling of OJP grant funds with funds from
       other Federal grants, in the NSP’s accounting records.



                                             - 18 -
2.   We recommend that OJP remedy the $18,497 in unsupported salary costs and
     fringe benefits charged to the grant.

     We agree with the recommendation. We will coordinate with NSP to remedy the
     $18,497 in unsupported salary and fringe benefits costs charged to grant number
     2008-JL-FX-0146.

3.   We recommend that OJP remedy the pre-award costs of $62,651 charged to the
     grant.

     We agree with the recommendation. We will coordinate with NSP to remedy the
     $62,651 in questioned pre-award costs charged to grant number 2008-JL-FX-0146.

4.   We recommend that OJP remedy the $25,825 expended on promotional material
     that did not have the required U.S. Department of Justice (DOJ) acknowledgement.

     We agree with the recommendation. We will coordinate with NSP to remedy the
     $25,825 in questioned costs related to promotional material that did not have the required
     DOJ acknowledgement.

5.   We recommend that OJP ensure that any future promotional items that are
     purchased with DOJ funds indicate on the items that they were purchased with DOJ
     funds.

     We agree with the recommendation. We will coordinate with NSP to obtain a copy of
     implemented procedures to ensure that future promotional material items purchased with
     DOJ funds are properly labeled as having been funded by DOJ.

6.   We recommend that OJP require NSP to establish grant accounting procedures to
     ensure that drawdowns are based on actual expenditures recorded in the grant
     accounting records. NSP should also ensure that its accounting provider has
     adequate internal controls in place, to include an adequate separation of duties for
     cash-related functions.

     We agree with the recommendation. We will coordinate with NSP to obtain a copy of
     implemented procedures to ensure that drawdowns are based on actual expenditures
     recorded in NSP’s grant accounting records, and that its accounting provider has
     adequate internal controls in place to ensure the separation of duties for cash-related
     functions.

7.   We recommend that OJP require NSP to submit corrected Financial Status
     Reports.

     We agree with the recommendation. We will coordinate with NSP to provide a revised,
     current Federal Financial Report for grant number 2008-JL-FX-0146.




                                          - 19 -
We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Jeffrey W. Slowikowski
       Acting Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Marilyn Roberts
       Deputy Administrator
       Office of Juvenile Justice and Delinquency Prevention

       Stephanie Rapp
       Program Manager
       Office of Juvenile Justice and Delinquency Prevention

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20101932




                                            - 20 -
     APPENDIX V: OFFICE OF THE INSPECTOR GENERAL
          ANALYSIS AND SUMMARY OF ACTIONS
           NECESSARY TO CLOSE THE REPORT

      We provided National Safe Place (NSP) and the Office of Justice
Programs (OJP) our draft audit report for review and comment. The
response we received from the NSP has been incorporated into our report as
Appendix III, and the response that we received from OJP has been
incorporated into our report as Appendix IV. In our analysis below, we
respond to any relevant comments and detail the actions necessary to close
each of the recommendations.

Recommendation Number:

1.   Resolved. OJP concurred with our recommendation that the NSP
     account separately for grant financial activity in order to prevent the
     commingling of the accounting records with other NSP federal grant
     financial activity. According to the NSP’s response, it has made
     adjustments to its accounting procedures so that all federal funds that
     come into the NSP will be given a separate program code and all
     expenses associated with that federal grant will be accounted for
     within that program code. This recommendation can be closed when
     we receive evidence that the NSP has implemented appropriate grant
     management procedures, approved by OJP, that address accounting,
     reporting, purchasing, and general grant administration.

2.   Resolved. OJP concurred with our recommendation that the $18,497
     in unsupported salary costs and fringe benefits charged to the grant be
     remedied. In its response, the NSP stated that it now has a policy to
     ensure that whenever federal funds are received for an employee’s
     salary, that employee will document their work time attributed to the
     grant on a grant time sheet. Additionally, the NSP stated that it will
     submit to OJP certified timesheets to remedy the questioned costs.
     This recommendation can be closed when we receive evidence that the
     $18,497 in unsupported costs has been remedied in an appropriate
     manner.

3.   Resolved. OJP concurred with our recommendation that the pre-
     award costs of $62,651 charged to the grant be remedied. According
     to the NSP’s response, it used the pre-award expenses to secure
     services from a contractor to develop and brand an awareness
     campaign. The NSP further stated that it will request from OJP
     retroactive approval for these expenses. This recommendation can be



                                   - 21 -
     closed when we receive evidence that the $62,651 in pre-award costs
     charged to the grant have been remedied in an appropriate manner.

4.   Resolved. OJP concurred with our recommendation to remedy the
     $25,825 expended on promotional material that did not have the
     required DOJ acknowledgement. In its response, the NSP stated that
     it has implemented a policy to ensure that all grant-funded items will
     contain an acknowledgement that they were purchased with grant
     funds. Additionally, the NSP stated that, with DOJ approval, it will
     send a letter to all entities that received the promotional items that
     states the items were purchased with DOJ grant funds. This
     recommendation can be closed when we receive evidence that the
     $25,825 expended on promotional material has been remedied in an
     appropriate manner.

5.   Resolved. OJP concurred with our recommendation that the NSP
     ensure that any future promotional items that are purchased with DOJ
     funds indicate on the items that they were purchased with DOJ funds.
     In its response, the NSP stated that it has implemented a policy to
     ensure that all grant-funded items will contain an acknowledgement
     that they were purchased with grant funds. This recommendation can
     be closed when we receive evidence that the NSP has implemented
     appropriate procedures, approved by OJP, that ensure that all grant-
     funded items will contain an acknowledgement that they were
     purchased with grant funds.

6.   Resolved. OJP concurred with our recommendation that the NSP
     establish grant accounting procedures. According to the NSP’s
     response, it has established policies to ensure that it draws down only
     amounts that are based on actual expenditures. Additionally, the NSP
     stated that it believes both the NSP office and the financial accounting
     office have adequate internal controls in place, including separation of
     duties for cash-related functions. This recommendation can be closed
     when we receive evidence that the NSP has implemented grant
     accounting procedures to ensure that drawdowns are based on actual
     expenditures recorded in the NSP’s grant accounting records, and that
     its accounting provider has adequate internal controls in place to
     ensure the separation of duties for cash-related functions.

7.   Resolved. OJP concurred with our recommendation that the NSP be
     required to submit corrected Financial Status Reports (FSR). The NSP
     stated that it will revise and resubmit all financial reports for this grant
     in a timeline determined by DOJ. This recommendation can be closed
     when we receive evidence that the NSP has submitted corrected FSRs.


                                    - 22 -
